<html>
<title> - SAFEGUARDING HAWAII'S ECOSYSTEM AND AGRICULTURE AGAINST INVASIVE SPECIES</title>
<body><pre>[Senate Hearing 112-548]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-548

   SAFEGUARDING HAWAII'S ECOSYSTEM AND AGRICULTURE AGAINST INVASIVE 
                                SPECIES

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                   FIELD HEARING IN HONOLULU, HAWAII

                               __________

                            OCTOBER 27, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE

72-554 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Lisa M. Powell, Majority Staff Director
            Benjamin B. Rhodeside, Professional Staff Member
               Rachel R. Weaver, Minority Staff Director
                      Aaron H. Woolf, Chief Clerk














                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    33

                               WITNESSES
                       Thursday, October 27, 2011

Hon. Neil Abercrombie, Governor, State of Hawaii.................     3
Hon. Clifton K. Tsuji, Chair, House Committee on Agriculture, 
  Hawaii State Legislature.......................................     8
Hon. Clarence K. Nishihara, Chair, Senate Committee on 
  Agriculture, Hawaii State Legislature..........................     9
Lyle Wong, Ph.D., Plant Industry Administrator, Hawaii Department 
  of Agriculture, on behalf of the Hon. James J. Nakatani, Deputy 
  to the Chairperson, Board of Agriculture, State of Hawaii......    11
Bruce W. Murley, Area Port Director, Honolulu, Office of Field 
  Operations, Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................    21
Vernon Harrington, State Plant Health Director, Plant Protection 
  and Quarantine, Animal and Plant Health Inspection Service, 
  U.S. Department of Agriculture.................................    22
George Phocas, Resident Agent-in-Charge, Office of Law 
  Enforcement, Fish and Wildlife Service, U.S. Department of the 
  Interior.......................................................    24

                     Alphabetical List of Witnesses

Abercrombie, Hon. Neil:
    Testimony....................................................     3
    Prepared statement...........................................    36
Harrington, Vernon:
    Testimony....................................................    22
    Prepared statement...........................................    53
Murley, Bruce W.:
    Testimony....................................................    21
    Prepared statement...........................................    47
Nishihara, Hon. Clarence K.:
    Testimony....................................................     9
    Prepared statement...........................................    42
Phocas, George:
    Testimony....................................................    24
    Prepared statement...........................................    56
Tsuji, Hon. Clifton K.:
    Testimony....................................................     8
    Prepared statement...........................................    39
Wong, Lyle, Ph.D.:
    Testimony....................................................    11
    Prepared statement submitted on behalf of James Nakatani.....    44

                                APPENDIX

Questions and responses for the Record from:
    Mr. Tsuji....................................................    62
    Mr. Nishihara................................................    66
    Mr. Wong.....................................................    69
    Mr. Harrington...............................................    73
    Mr. Phocas...................................................    79
Statements for the Record:
    Hon. Madeleine Z. Bordallo, U.S. House of Represenatatives, 
      Guam.......................................................    81
    Christy Martin, MPA, Public Information Officer, Hawaii 
      Coordinating Group on Alient Pest Species (CGAPS)..........    84
    Congresswoman Colleen Hanabusa...............................    87

 
   SAFEGUARDING HAWAII'S ECOSYSTEM AND AGRICULTURE AGAINST INVASIVE 
                                SPECIES

                              ----------                              


                       THURSDAY, OCTOBER 27, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m., at the 
Hawaii Department of Agriculture (HDOA), Plant Quarantine 
Conference Room, 1849 Auiki Street, Honolulu, Hawaii, Hon. 
Daniel K. Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to welcome our witnesses today. The hearing today is 
on ``Safeguarding Hawaii's Ecosystem and Agriculture Against 
Invasive Species.'' Thank you all for being here today.
    Hawaii has a history of being a leader in recognizing the 
grave threat that invasive species pose to our native 
agriculture, economy, and natural resources. Hawaii's efforts 
to safeguard ecosystem date all the way back to 1888, when King 
Kalakaua declared a quarantine on coffee imported into Hawaii 
to prevent the introduction of coffee rust and other diseases. 
This was decades before the U.S. Government enacted the 
landmark Plant Quarantine Act of 1912.
    Hawaii's efforts continue to this day as invasive species 
arrive daily at our State's ports of entry, often hidden in 
agricultural cargo or inside passenger bags. Failure to detect 
and intercept these harmful pests imposes serious economic and 
social burdens on all residents of Hawaii. Invasive species 
already cost Hawaii hundreds of millions of dollars annually in 
lost agricultural revenue, property damage, and eradication 
programs. In light of the severe economic damage that is 
inflicted on the people of Hawaii, it is clear that focusing on 
prevention by improving agricultural inspections at our ports 
of entry is a very cost-effective strategy.
    Of course, economic costs are just one aspect of the 
consequences that would result from invasive species. Hawaii's 
majestic natural environment, home to more endangered species 
per square mile than any other area on this planet, provides 
the foundation of our State's culture and heritage. It also 
attracts millions of tourists to the State each year and has 
made Hawaii's tourism industry one of the strongest in the 
Nation.
    Invasive species could permanently devastate Hawaii's 
fragile ecosystem and in the process destroy our State's 
economy and character. Nearly 60 years after its arrival in 
Guam, the brown tree snake (BTS) continues to inflict terrible 
and irreversible damage on that island's ecosystem and economy. 
Guam's painful experience is a stark example of the dire 
consequences for any Pacific Island State that fails to keep 
out harmful invasive species.
    This hearing will examine how government agencies, 
stakeholders, and, most importantly, the people of Hawaii can 
work together to prevent invasive species from entering our 
State. I am particularly interested in exploring how Congress 
can best support Hawaii in enhancing agricultural inspections, 
which are critical for detecting harmful pests and diseases at 
our State's ports of entry.
    Hawaii has made significant progress in improving invasive 
species prevention and response, despite having limited 
resources. Many of the State's reforms have been successful in 
improving interagency coordination and raising awareness of the 
important role each resident of Hawaii must play in 
safeguarding our State.
    I am pleased that our State, under the leadership of 
Governor Abercrombie and Chairmen Tsuji and Nishihara, has 
committed to upgrading Hawaii's inadequate inspection 
facilities and restoring our State's agriculture inspector 
workforce, which was cut by 53 percent in 2009. I believe the 
Federal Government could be a better partner in the State's 
efforts against invasive species.
    Following the September 11 terrorist attacks, Federal 
customs, immigration, and agriculture inspection officers were 
combined under the new Department of Homeland Security. The 
decision to transfer front-line agricultural inspectors from 
the Department of Agriculture (USDA) into the Department of 
Homeland Security (DHS) was controversial.
    I have long been concerned that the transfer disrupted and 
undermined the agricultural inspection mission. Other members 
have expressed concern as well, and there have been efforts in 
Congress to return agricultural inspectors to USDA. However, I 
understand that a costly and potentially disruptive 
reorganization is not practical at this time. So given the 
urgency of the problem, I believe we must focus on 
strengthening the agricultural mission within DHS.
    In recent years, the Department has made progress in 
stabilizing the mission. I recently introduced the Safeguarding 
American Agriculture Act to build upon these gains and to make 
sure that the agricultural mission has the leadership, 
structure, and authorities needed to effectively protect 
American agriculture. The act would enhance accountability and 
efficiency by placing responsibility for agricultural 
inspections across the Nation squarely in the hands of 
agriculture specialists who could make operational decisions 
without going through levels of bureaucracy.
    To maintain a highly skilled and motivated workforce, the 
act would require DHS to provide agriculture specialists with 
the training and experience needed for a successful career. It 
is critical that these improvements are implemented across the 
Nation and here in Hawaii. I look forward to hearing from our 
witnesses today.
    I want to welcome our first panel witness, Neil 
Abercrombie, Governor of the State of Hawaii. Governor 
Abercrombie, I really appreciate you taking time out from your 
busy schedule to be here with us today.
    Mr. Abercrombie. It is an honor, Senator.
    Senator Akaka. It is the custom of the Subcommittee to 
swear in all witnesses, so----
    Mr. Abercrombie. I am usually being sworn at, so I am happy 
to swear in. [Laughter.]
    Senator Akaka. I ask that you please stand and raise your 
right hand. Do you solemnly swear that the testimony you are 
about to give this Subcommittee is the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Abercrombie. I do.
    Senator Akaka. Thank you very much.
    Let it be noted for the record that the Governor answered 
in the affirmative.
    Before we start, I want you to know, Governor, that your 
full written statement will be part of the record, please 
proceed with your statement.

   TESTIMONY OF HON. NEIL ABERCROMBIE,\1\ GOVERNOR, STATE OF 
                             HAWAII

    Mr. Abercrombie. Thank you very much, Senator. It is a 
great pleasure to be with you again. I do, in fact, have the 
testimony, and thank you for taking it because I would like to 
just comment a little bit informally then on it, particularly 
as a result of your introductory remarks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Abercrombie appears in the 
appendix on page 36.
---------------------------------------------------------------------------
    Although I notice, Senator, that some of the evidence with 
respect to invasive species is over here, I note particularly 
the bearded dragon. I thought I was the only bearded dragon 
over here, but I see there is another one.
    On a little bit more serious note, I notice that they also 
have the ball python over there, which, of course, is in the 
family, reptile family, relatively small, the ball python. But 
I think it is notable that as recently as yesterday evening, 
the Public Broadcasting System (PBS), nationally with its 
Nature program was featuring another invasive species in 
Florida, the Burmese python. The Burmese python can get to be 
25 feet in length and as thick as wastewater tubular sizes, 
capable of swallowing a crocodile. So whether its size is not 
the issue, the question is that invasive species are an issue 
that is not just pertinent to Hawaii but literally for the 
whole Nation. And some of the most precious spots that we have 
protected nationally as well as in terms of States and other 
localities are put into a dangerous situation because of 
invasive species.
    I want to just comment a bit informally because you have 
very distinguished panels to follow, including Representative 
Tsuji, as you mentioned, and Senator Nishihara, who have the 
responsibility here, and Dr. Lyle Wong will be testifying for 
our Department of Agriculture, as well as the distinguished 
people from the Department of Homeland Security, Customs and 
Border Protection (CBP), et cetera.
    The main intent, I just want to comment then on a couple of 
the issues that you have outlined. We really do need the 
Federal support. I realize the difficulties that are taking 
place in Congress right now. I realize, of course, from my time 
in Congress just the explanations that were necessary in the 
Interior Committee in the House of Representatives, on which I 
was privileged to serve, to try to explain to somebody about 
the brown tree snake, because many of our colleagues, my former 
colleagues and your current colleagues, are used to situations 
in which snakes are part of the environment. But in our island 
context, the introduction of snakes, particularly the voracious 
variety like the brown tree snake or perhaps something as 
formidable as a Burmese python, literally puts us into a 
situation where other species can be wiped out, simply 
eliminated, and not just from our consciousness but literally 
from the planet. This is really serious business.
    This is why your bill that elevates the agricultural 
inspection mission of the Department of Homeland Security, and 
I hope it can be incorporated with whatever legislation will be 
emerging from Congress this year.
    We literally need all the assistance we can get in this 
regard because, among other things, the U.S. Department of 
Agriculture only inspects luggage and cargo leaving the State 
but not anything incoming, which leaves us really in critical 
danger in this regard. It is not because they do not wish to. 
They do not have the resources. That is why it is so critical 
to have partnership on the Federal side.
    It is critically important that--as I mentioned, the brown 
tree snake in Guam, we do not have the capacity here in the 
State, as Dr. Wong I am sure will make clear to you, and 
certainly Representative Tsuji and Senator Nishihara will, 
while the U.S. Department does preclearance inspection, those 
funds may be in jeopardy with regard to Guam. And Customs and 
Border Protection does not inspect the snakes because they are 
not actionable pests. We probably need to have a good look at 
some of the definitions that are involved here to make sure 
that invasive species can be covered adequately in terms of the 
realities that we have to face in our island world here in the 
Pacific.
    Also, obviously, we cannot go to Guam and do the 
inspections. We do not have the authority to do that, and so it 
is vital that the policies of the USDA and Customs and Border 
Protection be enhanced and enable us to partner with them to 
make all of this focus that we need to have on invasive species 
be able to be meaningful.
    As you have pointed out, Hawaii has a unique biodiversity, 
unique in all the world that needs protection. Our water and 
land, ocean's resources, are our foundation for the cultural 
diversity that exists here in Hawaii. So this is more than just 
a question of our desire to do these things. This literally has 
to do with the concept, in Hawaiian, of acting in a ``pono'' 
way, of doing things the correct way, of recognizing our place 
as human beings in the spectrum of life and activity on this 
planet and recognizing what our obligations and 
responsibilities are, particularly here in the islands.
    Just as a quick example, I think most of the people in this 
room are aware of it, but for the record that is being kept, 
just the coffee berry borer and the Africanized honeybee are 
causing havoc to our niche industries, if you will, here, 
agricultural industries of coffee. Everybody assumes, well, 
Kona coffee, Kau coffee, Molokai, I mean, coffee now is 
ubiquitous throughout the islands. It is not just in Kona 
itself. And yet the coffee berry borer puts that in jeopardy. 
And the same with the Africanized honeybee. At one point at a 
little compound that I lived in when I was a student at the 
University of Hawaii, we grew honey there. We had hives there. 
I had one in my front yard. I am very familiar with the growing 
of honey. It is one of the great entrepreneurial activities 
here in Hawaii and much sought after the world over. In 
jeopardy.
    So, in conclusion, I want to indicate that I am not just 
speaking. Some of the folks that you met here today are the 
agricultural inspectors we brought back. Now, we are facing, 
the State of Hawaii, over the next 2 years, as Representative 
Tsuji and Senator Nishihara know only too well, a $1.3 billion 
deficit that we have to come to grips with. But we put those 
inspectors in. We did that hiring because those inspectors are 
absolutely the front line that we have to address the question 
of invasive species. That is an investment. That is not 
spending. That is an investment literally in Hawaii's 
environmental future and in our responsibility to meet the 
cultural necessity of addressing invasive species.
    So this hearing is very pertinent. This hearing could not 
be more timely, and I thank you for the opportunity of being 
able to appear in front of you. Mahalo nui and aloha.
    Senator Akaka. Thank you. Aloha and mahalo nui, too, for 
your statement, Governor Abercrombie. I have a few questions 
that I would like to ask you.
    Mr. Abercrombie. Sure. A pleasure.
    Senator Akaka. Governor, reinstating Hawaii's agricultural 
inspectors is a key element of your administration's New Day 
Plan to protect our State's ecosystem, agriculture, and 
economy.
    Mr. Abercrombie. Yes.
    Senator Akaka. As your administration continues to 
implement this important initiative, what are the next steps 
you will take to make sure sufficient resources and focus are 
sustained on bolstering the State of Hawaii's agriculture 
quarantine and inspection operations?
    Mr. Abercrombie. I am certain that Representative Tsuji and 
Senator Nishihara will give you some of the details that we are 
working on in conjunction with them through our Department of 
Agriculture, as will Dr. Wong. What we will be doing is 
speaking to the rest of the legislature and to the public at 
large about the necessity of strengthening this area. But I 
must be candid with you and straightforward about it. Your bill 
actually is crucial in this quest because we need the USDA and 
Customs and Border Patrol to be able to partner with. If they 
do not have the resources, in all honesty I think that we will 
be in a bit of a struggle.
    In terms of priorities, obviously I will be siding with the 
Representative and the Senator in terms of trying to maximize 
the attention the legislature would give priority to the area 
of inspection, the area of dealing with invasive species, 
because the consequences are so dire. Other than that, the 
cooperation and collaboration with the Federal side that is 
emphasized in the hearing today is just fundamental to the 
likelihood of success.
    Senator Akaka. Thank you very much, and thank you for your 
support, Governor.
    I share your view that prevention is the most effective 
management strategy for invasive species. As you noted in your 
testimony, we have worked together as Members of Congress to 
push USDA and HDOA to enter into a cooperative agreement that 
would allow both agencies to develop a comprehensive prevention 
strategy that secures all pathways into the State. Please 
elaborate on why it is so critical that USDA work together with 
Hawaii to create an innovative prevention strategy.
    Mr. Abercrombie. If we are unable to do it, if we are 
unable to accomplish this, the task for the inspectors we do 
have will simply be extremely formidable. It is not that they 
will not devote every effort to it, and it is not that we will 
not give every emphasis to it with the personnel that we have. 
But I think absent the collaboration that you have just cited--
I have to be straightforward about it--we will have to be in a 
struggle with other equally pressing interests during the 
legislative session for priority. I guess some kind of triage 
will have to take place. We will have to decide where we will 
place the fiscal emphasis in terms of personnel and material 
support operating budgets against, I am certain, two, three, 
four, five other pressing areas, in education or in health care 
or in human services, all of which will be able to make a 
strong case for whatever, as case managers in human services, 
for example, for families in distress, foster children, early 
childhood education, which we are trying to emphasize now, so 
that we make an investment in zero to five, both in health 
terms and in preparing young children for kindergarten and 
their first years in elementary school so that they are not 
behind when they get started.
    These are very powerful incentives to address. They are 
very powerful social, economic, and cultural incentives to 
support those areas as well. So we do not want to put what we 
are trying to do with invasive species into competition with 
those other areas of concern and proper focus.
    So what we need is to understand that in and of itself the 
effort to combat invasive species is simply something that has 
to be done in order to meet our obligations, both moral and 
legal. And the best way to do that is to have professional 
personnel that know what they are doing, that have that 
commitment, have that background, have that capability. And 
USDA, Customs and Border Patrol, and our Agriculture Department 
have that capacity. We have the background through the 
University of Hawaii in terms of research and support that can 
be done.
    And, again, as I am sure that Dr. Wong and Representative 
Tsuji and Senator Nishihara will tell you, we know what to do. 
We have a game plan. What we need is the support, and the 
Federal support is crucial to that. Absent that, we will do the 
very best we can to continue to have that focus and to raise 
the necessary funds and make the necessary moves legislatively 
speaking to support this effort.
    Senator Akaka. Thank you, Governor. As you know, preventing 
foreign pests and diseases from entering the United States is 
the responsibility of the Federal Government. My final question 
to you is: What are your top three recommendations for how the 
Federal Government can improve its agriculture quarantine and 
inspection operations to meet the unique needs of Hawaii?
    Mr. Abercrombie. If I say three, it is not necessarily in 
order, but it is a cumulative orientation. I think it is 
critical that the Federal Government support an appropriate 
level of inspection to keep invasive species out of Hawaii. I 
think, second, that there be an appropriate level of fiscal 
support for that inspection; that is to say, the necessary 
funding to support that personnel. And then the third thing 
would be that we have an action game plan between the Federal 
and the State government to enable those inspectors and that 
funding to be well utilized so that we can come back to the 
Congress and point out that the money and the personnel that 
was put forward has been well utilized in every respect.
    I realize there is a certain level of faith and trust that 
has to go into that. All we can do is say give us the 
opportunity to effect what we want to accomplish with a game 
plan like that, and we will prove that it can be done.
    We are in a little bit of a difficult position in this 
sense: When the invasive species are here, then you can take 
pictures of it and you can write stories about it and all the 
rest of it. In a certain sense, we are trying to prove the 
negative. If we get the commitment to the appropriate level of 
inspection, get the appropriate level of fiscal support, then 
have a game plan, the success will be that nothing happens. And 
so the best thing that we will be able to say to you and the 
best way we can be able to prove that it works is at the end of 
any given year, at the end of any given inspection period that 
the Congress would like to set as its benchmark, we will be 
able to say nothing happened, we caught it, we headed it off, 
we nailed it before it got started.
    Of course, that is what inspection, professional 
inspection, people with professional capabilities are capable 
of. It is the idea that there is no story. So if we can get 
those three things done, I am confident that at the end of any 
given period set for measurement as to whether it worked or 
not, we will be able to say that there is no story here.
    Senator Akaka. Well, I want to thank you very much, 
Governor, for your testimony as well as your responses. Without 
question, it is going to be helpful to us to help Hawaii in 
this respect.
    Mr. Abercrombie. Thank you very much, Senator. I have to 
tell you, it is a great pleasure, it is an honor, and it is a 
great privilege for me and a personal joy to be able to speak 
with you and spend some time with you again. But I have to tell 
you in all candor, I am so happy not to be doing this with you 
in Washington. [Laughter.]
    Senator Akaka. Well, aloha and mahalo, and I wish you well 
in your work here in Hawaii.
    Mr. Abercrombie. Thank you very much, Senator. Mahalo.
    Senator Akaka. Thank you, Governor.
    I would ask our second panel of witnesses to please come 
forward. I welcome our second panel: Clifton Tsuji, Chair of 
the Hawaii House Committee on Agriculture; Clarence Nishihara, 
Chair of the Hawaii Senate Committee on Agriculture; and Dr. 
Lyle Wong, Plant Industry Administrator for the Hawaii 
Department of Agriculture.
    As I told the Governor, it is the custom of the 
Subcommittee to swear our witnesses in, so would you please 
stand and raise your right hands? Do you swear that the 
testimony you are about to give this Subcommittee is the truth, 
the whole truth, and nothing but the truth, so help you, God?
    Mr. Tsuji. I do.
    Mr. Nishihara. I do.
    Mr. Wong. I do.
    Senator Akaka. Thank you. Let it be noted that the 
witnesses answered in the affirmative.
    Before we start, I want you all to know that your full 
written statements will be made a part of the record, and I 
would like to remind each of you to please limit your oral 
remarks to 5 minutes.
    Representative Tsuji, will you please proceed with your 
statement?

 TESTIMONY OF HON. CLIFTON K. TSUJI,\1\ CHAIR, HOUSE COMMITTEE 
            ON AGRICULTURE, HAWAII STATE LEGISLATURE

    Mr. Tsuji. Thank you very much, Chairman Akaka and Members 
of your Subcommittee. I sincerely thank you because during my 
half dozen years or so with the House of Representatives, this 
is the first time I saw a sincere effort, at least in 
Agriculture, that a congressional member or a congressional 
team has come to Hawaii to listen to our concerns and, in 
particular, invasive species and its impact on agriculture. So 
to begin with, thank you very much, and I cannot help but think 
the invitation is so sincere when I look around in the back of 
me, our invasive species are all around here welcoming you also 
from snakes of Florida to everywhere else.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tsuji appears in the appendix on 
page 39.
---------------------------------------------------------------------------
    Yes, I have submitted my written testimony and supplemental 
attachments, and with that I will summarize and make myself 
available for questions that you have. And certainly if I do 
not have the appropriate answers, I hope you will so state, and 
I will endeavor to followup on such inquiries.
    But in the State legislature and the people of Hawaii, 
invasive species has been one of those silent invaders from 
years gone by. The exception maybe is the noisy coqui frog. 
They attack our economy. They attack our lifestyles, our 
economy, our whole environment, probably one of the single 
biggest threats to Hawaii. And the damages, the downside is the 
damages to the crops, extinction of native species, and other 
destructive elements has gone into the millions year after year 
after year and over a period of continuous--maybe a half dozen 
years or so, maybe it got into the millions of dollars, maybe 
$15 million has been spent in trying to counter invasive 
species.
    My personal feeling, it is very difficult, if not 
impossible nearly, to quantify the amount of investment that 
goes into invasive species from the Federal, State, and county 
level and even independent citizens in Hawaii, and to see what 
the return for this is the end result.
    Mr. Abercrombie mentioned--and I think you questioned him 
basically on one of the concerns, and he used the term 
``actionable products.'' And some of our invasive species are 
not on the actionable list and, therefore, and because of 
Federal preemption the Hawaii inspectors are not notified, at 
least, or not mandated to be notified from the USDA or the 
Federal level and, therefore, they do not treat or cannot treat 
these commodities. I think this is a very serious concern and 
it should be looked into.
    And I commend you, Senator Akaka, for the bill that you 
have brought forth and are bringing forth to Congress with the 
Honorable Representative from California. But I would say I 
think it touches what the concerns are, including all the ports 
of entry in the United States, as it mentioned. But if I may 
say, too, Senator Akaka, when people collectively say United 
States of America, somehow the State of Hawaii is left out. We 
are the last outpost. It seems like we are the Alamo of the 
entire United States, and we cannot stand alone before we self-
destruct.
    So I have one recommendation before I close. It is my 
summarization. In 2007, there was this very comprehensive 
document that was produced by USDA, called ``Pathway Analysis 
of Invasive Species Introduced into the State of Hawaii,'' and 
not unless I do not have the most current document, it is 
stamped ``A Draft.'' And I believe this would be very helpful 
in particular to Hawaii and the rest of the United States if 
some of the thoughts would be taken into consideration as you 
journey through with your very important legislation. But if 
this is not complete, well, I do not think you can manage to 
say that we will use it, but I hope for some reason we will 
find a final draft and you would take consideration of this.
    With that, in summarizing within the time limit expanded, 
thank you very much again, and I would be more than happy to 
attempt to answer your questions.
    Senator Akaka. Thank you very much, Mr. Chairman, for your 
testimony.
    Senator Nishihara, would you please proceed with your 
statement?

   TESTIMONY OF HON. CLARENCE K. NISHIHARA,\1\ CHAIR, SENATE 
       COMMITTEE ON AGRICULTURE, HAWAII STATE LEGISLATURE

    Mr. Nishihara. First, aloha, Senator Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nishihara appears in the appendix 
on page 42.
---------------------------------------------------------------------------
    Senator Akaka. Aloha.
    Mr. Nishihara. I appreciate your coming back to chair this 
important issue. I think it is one that has been in our 
newspapers, the issue of invasive species, over a number of 
years, and certainly it is good that you then take it forward 
in your efforts to maybe at the Federal level make some 
corrections that will help us to better do our jobs here.
    On that note, first I would like to thank you for sharing 
our concerns here regarding invasive species and their impact 
on our agriculture and environment. Whenever invasive species 
become established, there are profound impacts for our State as 
well as other States.
    We have heard today that 75 percent of the pests that have 
become problematic are of foreign origin. We are the recipients 
of these pests. We are not giving them out. We have also heard 
about the importance of preventing invasive species from 
impacting the environment and natural resources. However, 
agriculture also suffers greatly from invasive species, not 
only through increased costs of production, but also from 
Federal policies that prevent Hawaii growers from accessing 
domestic markets due to an archaic Federal quarantine on 
Hawaii. I think some of these regulations were here that 
preceded us becoming a State, when we were a territory.
    Currently, Hawaii is quarantined from the continental 
United States primarily due to a fruit fly infestation that was 
introduced to the islands years ago. Because of this Federal 
quarantine, there are over 450, maybe 200 full-time equivalent 
(FTE) positions, Federal positions, here to protect the 
mainland from Hawaii, with very little of this huge manpower 
resource protecting Hawaii from foreign countries and the 
mainland. So it is kind of backward. Because of this attention 
toward protection of the mainland, there has been very little 
improvement in prevention systems to mitigate the increasing 
threat from the Asia-Pacific pathway. As such, Hawaii is always 
susceptible to having additional quarantines on our 
agricultural commodities due to weaknesses in the Federal 
quarantine system. And, in addition, there is always pressure 
to implement other quarantines on Hawaii to protect the Pacific 
Island regions, the countries, and the territories by the U.S. 
Department of Interior (DOI).
    We support your initiatives to improve the Federal 
quarantine system. This is a vital step. We also encourage you 
to review and evaluate how Federal resources are being utilized 
here. If existing resources are creatively used to protect 
Hawaii and the continental United States, then I think we will 
all benefit. Taking manpower away from the x-ray machines at 
the airports and incorporating them into systems approach pest 
management systems in Hawaii's production areas may, in fact, 
lessen pest incursions into the mainland and reduce the impacts 
of those species to both this Nation and our State.
    So I think it is an appropriate time to review and 
modernize the Federal and State policies and systems, and in 
doing the same thing because it has all been done--doing the 
same thing again and again because it has always been done is 
not acceptable, as you are well aware of in your dealings in 
Congress. It has never been more important for Federal and 
State to move together in a strong cohesive manner.
    On that note, Senator, I think we have numerous incidents 
where invasive species have come into our State which then 
become--Hawaii then has to protect ones that came to the 
mainland of the United States, and I think it is time to maybe 
change some of the dynamics, and I would be happy to answer any 
questions you have.
    Senator Akaka. Thank you very much, Senator, for your 
testimony.
    Dr. Wong, will you please proceed with your testimony?

 TESTIMONY OF LYLE WONG, PH.D., PLANT INDUSTRY ADMINISTRATOR, 
 HAWAII DEPARTMENT OF AGRICULTURE, ON BEHALF OF HON. JAMES J. 
 NAKATANI,\1\ DEPUTY TO THE CHAIRPERSON, BOARD OF AGRICULTURE, 
                        STATE OF HAWAII

    Mr. Wong. Thank you, Senator. The testimony that I am 
presenting today is actually testimony from James Nakatani, who 
happens not to be here. He is at another public hearing, and it 
is something that he has to do because Chairman Kokubun had a 
family emergency on the mainland and is not here to participate 
as well. But, in reality, the best person to present this 
testimony is actually the head of Plant Quarantine, Carol 
Okada, who had scheduled a visit to Korea to visit her daughter 
who is in the service there. So on behalf of the Department of 
Agriculture and the Deputy, James Nakatani, I will present the 
statement from the Department of Agriculture.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nakatani appears in the appendix 
on page 44.
---------------------------------------------------------------------------
    I would like to actually start off by saying that, despite 
the challenges that we have in Hawaii, plant quarantine over 
the years and the programs within the Department of Agriculture 
have been remarkably successful in keeping out some of the 
worst pests of agriculture in the world, and we have failed in 
other regards, along with our Federal counterparts. But we were 
one of the last places in the world to get the varroa mite, 
which is a serious pest of honeybees. We got it about 3 or 4 
years ago. We still have not gotten the red imported fire ant, 
which has infested most of the southern tier States right now 
and is a very serious pest, and a pest that has gotten into New 
Zealand and Australia despite their very robust quarantine 
programs, but we have yet to get it.
    Unfortunately, we just got the small hive beetle 2 years 
ago, and that pest with the varroa mite will probably seriously 
set back our opportunity to do commercial beekeeping in the 
State of Hawaii.
    So we have had success. We have had miscues and lost 
opportunities and some failures. And the presence of invasive 
species in Hawaii has been devastating for our native biota and 
our agriculture, and that is, I guess, the thing that we will 
always remember and have to struggle with.
    The Department of Agriculture strongly supports the 
congressional legislation to strengthen State and Federal 
quarantine programs to mitigate pest risk through the movement 
of cargo and passengers, through both domestic as well as 
foreign pathways into the State of Hawaii.
    As noted in Mr. Nakatani's prepared testimony, the rate of 
new species entry into Hawaii is 2 million times the natural 
colonization rate. This was prior to man's presence in the 
State of Hawaii, in the Hawaiian Island. Adding to the 
challenge for Hawaii, non-native species and potential invasive 
species to Hawaii are 500 times more likely to become 
established in the State of Hawaii than in the continental 
United States, and this is obviously due to our year-round mild 
climate and opportunity to provide good habitat for these 
species in the absence of biocontrols that would set them back.
    Most new pests found in Hawaii are of foreign origin. 
Foreign cargo and passenger baggage inspection programs at 
Honolulu National Airport are essentially identical to that of 
all other international ports in the United States. Federal 
inspectors take action based on a list of pests for which 
specific legal authority is deemed to exist. Most pests on the 
actionable list pose a serious threat to U.S. mainland 
agriculture, but in practice, this actionable list often has 
little to do with the organisms that would affect Hawaii 
agriculture, native biota, or public health.
    As a consequence, while we are concerned about actionable 
pests that the Feds are concerned about, we are also concerned 
about organisms that are not known to occur in Hawaii, and this 
is because an organism not known to occur in Hawaii could 
become a serious pest, and we have numerous examples of this, 
where in the home range it is of no consequence, but once it 
gets into Hawaii, its numbers explode and it becomes a pest of 
either agriculture, environment, or public health. So if our 
inspectors find a not-known-to-occur pest in Hawaii, we can 
take action. The Feds may not be able to do so.
    To compound the problem for Hawaii, under the Federal Plant 
Protection Act, a State is expressly prohibited from regulating 
in foreign commerce and in turn to take independent State 
action to inspect, quarantine, control, eradicate, or prevent 
the introduction of plant pests and plant products in foreign 
commerce.
    The Federal preemption clause of the Federal Plant 
Protection Act prohibited Hawaii from requiring nurseries at 
risk of red imported fire ant infestation to pesticide-treat 
plants prior to shipment to Hawaii and prevented New Zealand 
from transshipping through the State of Hawaii cargo bees to 
the U.S. mainland and New Zealand, and prevented Hawaii from 
requiring Taiwan to pesticide-treat their phalaenopsis, potted 
phalaenopsis, when USDA approved movement of potted 
phalaenopsis from Taiwan to the U.S. mainland. So the Federal 
preemption prevents us from taking the necessary steps for 
Hawaii to have those procedures in place to mitigate pest risk.
    So we support the efforts of your measure to enhance the 
position of CBP inspectors, and we would recommend an amendment 
to the Federal Plant Protection Act to give Hawaii an 
opportunity to participate in some of these quarantine 
inspection programs with the Feds to be more protective of the 
State of Hawaii.
    Thank you.
    Senator Akaka. Thank you very much, Dr. Wong.
    I have a question for the entire panel. Since 2008, The 
Kahului Joint Inspection Facility has protected Maui against 
invasive species. However, only a small portion of air cargo 
enters the State through Maui. Most comes through Honolulu 
International Airport, which does not have a similar facility.
    Should building a joint inspection facility at Honolulu 
International be a high priority for the State? And if so, what 
steps can the Federal Government take to support doing so as 
soon as possible? Representative Tsuji.
    Mr. Tsuji. Thank you, Senator. I will attempt to answer 
that. This question about a joint inspection facility or a 
biosecurity facility has not been one that happened overnight 
or whatever it may be. The facility that you mentioned on Maui, 
although it is not a high-traffic area, it is definitely very 
important. Whether you view it on a comparative basis, flow of 
traffic, Oahu Island compared to Maui Island, definitely it 
should be here on Hawaii Island--or, should I say, Oahu Island.
    Last year, House Bill 1568 required the Department of 
Transportation (DOT) and the Department of Agriculture to 
facilitate work on this import-export facility--regarding 
inspection of commodities, and it requires the Department of 
Transportation to provide space at commercial harbors for 
biosecurity inspection facilities.
    Senator Akaka, it was a very contentious bill. I know it 
was because I introduced this bill, and I tried to shepherd it 
through the House committee, with the cooperation and the help 
of the Senate committee. But because of lack of funding, the 
only reason that this bill was finally signed into law is 
because we pulled back the appropriations amount. That sounds 
so ironical, what is a bill like this, which needs so much 
capital improvement funds, to proceed forward.
    So to answer your question, the next step is both at the 
State level and the Federal level to participate in some type 
of funding that we are trying to work right now with the Hawaii 
Department of Agriculture and also with the Hawaii Department 
of Transportation and we look forward to your assistance in 
this matter, Senator.
    Senator Akaka. Thank you very much for your response. 
Senator Nishihara.
    Mr. Nishihara. Well, I do agree with Chair Tsuji on the 
issue, and, unfortunately, with I guess not only our State but 
other States as well, with the economic downturn and the 
subsequent cutback of funds for services, this was one of those 
where, as important as it was, no funding was able to be 
provided. And as we all know, you cannot advance anything. At 
some point you do need money. And having the Federal support at 
least funding this effort I think would go a lot further to 
making it a reality instead of just a good idea.
    Senator Akaka. Thank you. Dr. Wong.
    Mr. Wong. The Hawaii Department of Agriculture started 
looking at a joint use inspection facility in 2006, and we were 
able to do that because of $100,000 funding from State Civil 
Defense. And in moving forward the proposal to assess the 
feasibility, we did meet with Customs and Border Protection as 
well as the Animal and Plant Health Inspection Service (APHIS), 
and because of the support of these two Federal agencies, we 
were able to get the funding from the State Civil Defense, 
which was money from Homeland Security.
    I think what set back the serious planning for this 
initiative was the downturn in the State economy and the loss 
of inspectors. We had to build the workforce up, which Plant 
Quarantine was able to do, but then we lost essentially all of 
those inspectors. Now we are getting the inspectors back 
through the current administration, and that disruption I think 
will soon be behind us, and we can seriously start looking at 
the feasibility of a joint use inspection facility. And it is 
critical because none of the agencies have the adequate 
facilities to provide good quarantine inspection because the 
State Department of Transportation cannot provide the space 
required by the three agencies to do so. So I think it will end 
up being a joint use inspection facility in one fashion or 
another.
    Senator Akaka. Thank you, Dr. Wong.
    Mr. Tsuji. Senator Akaka, if I may, I think I did not 
answer one of your points. The higher traffic is in Oahu, the 
lesser traffic is in Maui, but why did you agree to Maui? The 
irony of it all, it was not a legislative action. This went 
through the courts and it was a court mandate that directed 
this facility to be built there because of invasive species 
concerns, and realizing what happens to food safety, food 
security, languishing out in the climate on the island.
    Senator Akaka. Thank you very much for that addition.
    Mr. Tsuji. Thank you.
    Senator Akaka. Representative Tsuji, Federal agencies use 
actionable pest lists to determine what should not be allowed 
to enter the United States. However, as you noted in your 
testimony, it is estimated that about 3,000 pests that would 
damage Hawaii are not included on this Federal list.
    Since Hawaii is the only U.S. State comprised soley of 
islands, would it be preferable and feasible to use a modified 
list to meet the exceptional challenges posed by invasive 
species to Hawaii?
    Mr. Tsuji. A modified list?
    Senator Akaka. Yes.
    Mr. Tsuji. Yes, I would see no disadvantage of that. The 
actionable list, I think something like that would be very 
helpful. I might be led to believe that the Department of 
Agriculture, the invasive species section, is working on 
something like this. But it is very important. We should not 
say, no, this cannot happen or that can happen. It is very 
important. Federal border agencies--and I think I mentioned in 
my testimony previously due to Federal preemption, Hawaii 
inspectors are not notified, so we cannot--we are handicapped. 
We cannot treat these commodities or even identify these 
commodities. We should not stop there. We should look to 
alternatives, as you mentioned, and, yes, I agree.
    Senator Akaka. Thank you. Dr. Wong.
    Mr. Wong. Well, to--I am sorry, Senator. To some extent 
there is not necessarily a modified list, but a procedure in 
place that is based on policy. For example, there are seven 
genre of ants that are prohibited on the actionable list, but 
USDA by policy has given its inspectors the opportunity to 
reject any ant that is not known to occur in the State of 
Hawaii. So it does not have to be on the actionable list. And 
so a system of that nature might be available to expand the 
scope of authority for the inspectors in the field.
    Senator Akaka. I have a question for the entire panel. Each 
of your statements highlighted the need for USDA to increase 
the priority it places on protecting Hawaii from the threat of 
invasive species. As you all noted, there are currently 
hundreds of USDA employees conducting outbound inspections to 
protect the mainland. Yet the Department only has a few 
inspectors for cargo and passengers entering Hawaii.
    Do you believe this is a sufficient number of Federal 
inspectors to effectively protect Hawaii? And if not, how many 
should there be? This is to the panel. Representative Tsuji.
    Mr. Tsuji. Senator Akaka, may I?
    Senator Akaka. Yes.
    Mr. Tsuji. OK. Thank you. Do I believe that this is a 
sufficient amount or whatever it may be? I think there is an 
extreme inequity as far as inbound and outbound inspection of 
cargo. I think that the USDA has about 450 inspectors, or about 
250 full-time equivalent. But when you look at a comparison, 
Senator, Hawaii has right now less than 100 State inspectors. 
They are supposed to be on the job, but it is well known that 
in the last couple of years we have had a reduction in force. 
We also have had a number of people retire that have not been 
replaced.
    So if you use that on a ratio basis, on, let us say, 2.5:1 
or 3:1 and the one that has a higher degree of inspectors are 
much more effective. And using that as a baseline, then on that 
basis the other one with the lower threshold must be totally 
ineffective. And I use that as a guideline. We have hard-
working State inspectors. They work hard. They do the job 
beyond what is required. But that is not hard enough. We need 
the manpower. We need the foot soldiers there.
    The Governor is not here right now; thank you to the 
Governor, because a couple of years ago we said because of the 
demise of the economy, we are not able to fund these 
inspectors. Where are we going to get the money?
    Again, we do not end there. What we did is there was a 
cargo fee bill that was legislated--in other words, 50 cents 
per thousand. For every thousand pounds of cargo that came into 
the State of Hawaii through our ports of entry--air and 
maritime--the assessment was 50 cents per thousand.
    The calculation of that--and that was during the time when 
the economy was at a peak--was that the annual derived revenue 
for special funds would have been about $7 million. What 
happened right after that calculation? The economy went down 
and the annual revenue was somewhere about $3 to $3.5 million. 
This past legislative session, because the fund was being 
depleted, we increased it from 50 cents to 75 cents per 
thousand. We had the full cooperation of the Governor. In fact, 
he followed us and fast-tracked and had a special bill signing 
on that.
    Without special funds, we would have not been able to have 
the Governor declare that we are going to reinstate 10 
inspectors immediately. That may not seem much, but that is a 
stop-gap. But we cannot use only emergency stop-gaps. It has to 
be for the long term.
    To answer your question, no, it is not adequate.
    Senator Akaka. Thank you.
    Mr. Tsuji. Thank you.
    Senator Akaka. Thank you very much. Senator Nishihara.
    Mr. Nishihara. Well, Senator, I do not know what is the 
right number or the right size of number of personnel, but it 
is clear that when most of them are directed toward preventing 
things from entering their States, going out of Hawaii, and 
nothing prevents this from coming in, clearly when the 
statistics show that predominantly 75 percent is what is 
outside coming in, it seems like a change in how you use the 
personnel that you need to protect not only us but the States 
as well, if we were able to do a better job here preventing 
what comes in, because where we are situated, these species 
will be coming more and more from probably overseas, from the 
Far East and those areas. And if you look at what has happened 
with global warming as an issue, what is happening in Haleakala 
and some other places where the climate has been getting 
increasingly warmer, there has been a movement of some of these 
invasive species up toward the higher reaches.
    And so if we do not get the resources we need from the 
Federal Government, because the States are really having a hard 
time finding the resources, and putting it to where we really 
need it, then I think Hawaii's economy will go downhill. And it 
is so important for us as a State to be able to produce enough 
food for ourselves, which is also a very serious issue for us, 
but also our ability to export goods as well. And so if we 
cannot get that support, it certainly is going to make it much 
more difficult for us.
    Like I said, I am not sure what the right number or the 
right size is, but I do know what we do have is inadequate. And 
I leave it to those who are better able to give you a number to 
give you that number.
    Senator Akaka. Thank you.
    Mr. Nishihara. Thank you.
    Senator Akaka. Dr. Wong.
    Mr. Wong. I agree with the Senator and Representative Tsuji 
100 percent on that. The best data we have is from Maui from a 
massive blitz inspection program that we did almost 10 years 
ago, and what resulted from that risk assessment was a staffing 
at the airport of 14 inspectors for the tonnage throughput that 
they have on Maui. And now we have on Maui a state-of-the-art 
or pretty close state-of-the-art quarantine inspection station.
    We ran some numbers at that time, what the equivalent level 
of coverage would be at Honolulu International Airport for the 
tonnage throughput going through Honolulu International 
Airport, and the number we came up with was something like 221.
    Now, there is one thing for certain, and that certainty is 
that the number of inspectors we have in the State program is 
totally inadequate. There is an immediate consequence to 
running a program with an inadequate workforce. Despite how 
good these inspectors might be when they come in, eventually 
they will burn out and they will conclude that what they are 
doing is really not for real in terms of a serious effort to 
keep out invasive species, because when you put an inspector 
at, say, Continental Airlines and there are 15 LD3 cans there 
and he cannot inspect 15 LD3 cans that evening, he knows that a 
decision has been made to allow those cans to go through 
without thorough inspection. So we end up losing good 
inspectors or discourage them to the point where they will not 
function as best they can.
    I suspect the Department of Agriculture will need several 
hundred inspectors, and when that critical number becomes an 
opportunity for the State, then you will have inspectors asking 
more empowering questions and managers asking more empowering 
questions, and the legislators, and we will fine-tune the 
program. But with the workforce we have right now, it is very 
difficult.
    I am very sympathetic to CBP and APHIS and their efforts to 
help Hawaii, and as they do in this transition period, I think 
we will have coverage--not as good as we would like to have, 
but certainly better than what we had just several months ago.
    Senator Akaka. Thank you very much, Dr. Wong.
    Here is a question for the entire panel: As you know, USDA 
and the Defense Department cooperate to inspect military cargo 
flights to protect Hawaii from the introduction of the brown 
tree snake. DOD has an interest in keeping brown tree snake--
which has caused widespread power outages and other serious 
problems in Guam-out of Hawaii, which hosts the U.S. Pacific 
military headquarters. However, USDA has eliminated funding for 
the program, leaving its future in jeopardy.
    If the preclearance program is not continued, what will the 
consequences for Hawaii be and our Nation's military readiness?
    Mr. Tsuji. Senator Akaka, simply stated, I think the 
results would be catastrophic. We have been very successful in 
having Federal aid preventing the brown tree snake in 
particular from entering Hawaii. But other than the brown tree 
snakes, we do have other snakes coming into the State of Hawaii 
right now. The accusation and the fingerpointing is through air 
cargo, like United Parcel Service (UPS), et cetera. We have an 
amnesty program here in Hawaii. If you do turn in your snakes, 
you will not be prosecuted. But what are the results? 
Monetarily, it is millions upon millions on our environment, 
our ecosystems, our endangered species.
    But I would like to go back and think if one incident 
happened, not in particular brown tree snake, but brown tree 
snake and what Governor Abercrombie alluded to--and I believe 
it happened in Florida. A young couple failed to protect their 
2-year-old child. The child got asphyxiated in her crib. The 
child died. So what do I think of the result? Even if one 
person lost his or her life because of a snake invasion, I 
think that is one infestation too much.
    On the other side, when we talk about brown tree snake, 
working with the military, what about our exports to Guam? Guam 
has already detected and confiscated in air cargo, potted 
plants infested with coqui frog from Hawaii, so we have to work 
more cooperatively, we have to make sure things like this do 
not happen again. Prevention ahead of time.
    Senator Akaka. Thank you.
    Mr. Nishihara. Senator, it strikes me as a bit ironic that, 
on the one hand, the military is making great efforts to 
increase more alternative energy sources, photovoltaics and all 
of that. But at the end it is still electricity that flows. But 
if you allow a brown tree snake infestation, which would lead 
to shutting down the system, it does not quite make sense to 
increase production at one end and decrease it with the 
infestation of the brown tree snake.
    Senator Akaka. Yes. Dr. Wong.
    Mr. Wong. Senator Akaka, when I came back to the Department 
of Agriculture--I think it was in 1991--within a year or two 
after that, the eighth, I believe, brown tree snake was found 
in Hawaii. In fact, that day two were found on the tarmac. One 
was dead. The other one was about to die. That is eight.
    Now, to my knowledge, we have not--and there was another 
example of quite a healthy snake found in Schofield. So we are 
at risk. The programs in place in Guam--I am not sure the best 
protection is preclearance programs, but through the other 
programs that USDA has there, where they are trying to reduce 
populations in and around the airport. But those programs catch 
a lot of snakes. The predeparture may not be that effective 
because it is very difficult to catch a snake on an airplane. 
And we have never found a snake on an airplane. But the reality 
is we are at great risk of the movement because of the activity 
on Guam. And the last thing we want to see is that program go 
away because then it will fall on us to try and prevent entry. 
And, clearly, that level of risk becomes substantially higher 
if there is no activity on Guam.
    Senator Akaka. Thank you, Representative Tsuji, Senator 
Nishihara, and Dr. Wong. Each of your statements raised an 
important issue about the uncertain future Hawaii's farmers 
face because foreign exporters have easier access to mainland 
markets than Hawaii farmers who have been forced to work under 
an outdated Federal quarantine.
    What short-term and long-term policies must USDA implement 
to restore parity to Hawaii's growers?
    Mr. Tsuji. Thank you.
    Senator Akaka. Representative Tsuji.
    Mr. Tsuji. If I may partially quote you--and I hope I do 
not misquote--in your preamble to us about quarantine and 
Hawaii and agriculture, this was before, a long ways ago, I 
think you mentioned, during King Kalakaua's reign that Hawaii 
had established quarantines on our important crops. I think we 
have to take a deep consideration, looking at the Federal and 
State quarantine laws. I think the Federal quarantine on Hawaii 
is old, I believe it is archaic, and it should be seriously 
reviewed. But not, the quarantines established by the Hawaii 
Department of Agriculture. It is with USDA and with Homeland 
Security. Why? Because the bottom line, if you talk about 
economically speaking, Hawaii becomes economically 
disadvantaged.
    Hawaii, if I may repeat, is the last outpost. Why is Hawaii 
singled out--and I could be wrong--the only quarantine station 
or State in the entire United States--maybe we are the last 
outpost and the last frontier, but our small farmers suffer 
under the Federal quarantine and we have many small farmers. 
The plantation days are practically over. But as an example, we 
have this quarantine on certain types of items that we export 
to the Mainland. First of all, personal feeling, besides the 
law or the administrative ruling being archaic, I think our 
Federal and State facilities need to be improved. Only a small 
percentage of Hawaii's agricultural products can be exported to 
the Mainland because the process requires a rule amendment, and 
by the time they are ready to be exported to the rest of the 
United States for sale or for purchase. What happens? Your cost 
rises, and it has an inverse relationship as far as sales 
margin profitability and livelihood for agricultural people.
    Well, what about the foreign shipments that are imported 
and go directly to the United States through an expedited 
process? They have about a 6-month or more leeway, a half-year-
leeway. So profitability and survivability are much more 
advantageous to the foreign farmers. But does this men that we 
have to relinquish our very deep thought about consideration 
for invasive species? I don't know. But we should take into 
effect the consideration--as you go on your pathways that we 
should take that quarantine portion into consideration deeply 
and what should be done.
    Again, I think it is archaic, outmoded, open to deep 
consideration and discussion.
    Senator Akaka. Senator.
    Mr. Nishihara. Like I said earlier, some of the policies 
probably were created when Hawaii was a territory. I think 
since we have been admitted into the Union, well over 50 years 
ago, it is time for the rest of the country to recognize the 
fact that we do have--or should have the same protections as 
what they expect us to give to them. And so I think you may 
look at the kinds of goods and services or products we may want 
to sell to the mainland.
    The flowering plant industry is really huge in the United 
States, in Hawaii, and any kind of plant disease that is 
inadequately checked for and that gets into Hawaii's soils and 
into our plants diminishes that resource, that economic value 
to the farmers who make it as a living. And I think we should 
make every effort to ensure the support that we would give to 
the farmers in Hawaii.
    If this was a war they would talk about how many boots on 
the ground, how many people are doing the job, how many eyes 
are looking at these issues. I see that there does not seem to 
be a great deal of interest, at least on the national level, at 
least for the other States. Where we are, we are a small State, 
and the kind of production we do is not the same as States that 
have huge mono-crops that they may have that have a bigger 
interest. But I think it is time that they take a look at 
States like ourselves, especially Hawaii, where small farmers 
really have serious concerns about the kind of protections we 
will be able to provide to them so they will be able to sell 
and increase the economic value of what they have.
    Senator Akaka. Thank you. Dr. Wong.
    Mr. Wong. Senator, we are talking about building a better 
quarantine program in the State of Hawaii, certainly on a State 
level, the Plant Pest Control Branch in the Department of 
Agriculture, but there is a downside to having a very good 
plant quarantine inspection program. And the downside is 
inspectors will find pests, and when they find pests, a 
regulatory action has to be taken, and either you have to clean 
it up or you send it back or you destroy it here. And that is 
just the reality.
    Now, the other reality is the big shippers on the mainland 
do not have to ship to Hawaii. They can ship to Boise, Idaho. 
They can ship to Miami, Florida, or whatever. They do not have 
to ship to Hawaii. Our growers have to ship to the U.S. 
mainland. So when we ship to the most important market in the 
U.S. mainland, say California, they take a hard look at what 
they ship and they take action, and our growers in Hawaii eat 
the full costs of the regulatory action, which is generally 
destruction and sending it back to Hawaii, and our growers take 
the full hit.
    A lot of the shippers in California right now, as they have 
to deal with our plant quarantine program, are saying to the 
importers in Hawaii, ``You have to participate in the risk.'' 
California is, the reality is, the 300-pound gorilla, and we 
have to increase--to incur some of that cost of an effective 
quarantine program in Hawaii to keep out invasive species.
    Now, we certainly want to have good quarantine programs. 
How do we live in a situation where it is not a fair playing 
field? And I think the practicality is we have to have Plant 
Quarantine Department of Agriculture managers that are not 
tying up all of their time in crisis management, because the 
head of Plant Quarantine or the head of Plant Industry Division 
has to be out there with the California Department of Food and 
Agriculture (CDFA), and APHIS coming up with programs, 
negotiating deals to minimize our risks of getting pests 
through programs that shippers in California can agree to so 
that we can continue to do what we have to do, keep out pests, 
but not put ourselves in jeopardy of eating additional costs 
and increasing the cost of living in the State of Hawaii.
    And so the Plant Quarantine Biosecurity Program is trying 
to do exactly that with the help of actually these two 
gentlemen here, a biosecurity program for import replacements, 
for increased production so we do not have to bring in high-
risk commodities, and to have the resources and the luxury of 
time to meet with counterparts in California and other States 
with some of our young staff to snooker deals so that we can 
come up with a better Plan B other than just being hard-hitting 
quarantine guys that increase the cost of living in the State 
of Hawaii because they can ship to Boise, Idaho, and 
California.
    So it is a comprehensive systems approach, big planning, 
but our program staff needs to have the luxury of time to 
actually do that and try and pull it off.
    Senator Akaka. Thank you, Dr. Wong.
    That is my final question to the panel, our second panel. I 
want to thank you so much for your statements as well as your 
responses. It is going to be helpful. There are other questions 
that I have that we may send to you to write for us and answer 
them. But I want to thank you for your responses. Without 
question, it is going to be helpful. Thank you. Mahalo.
    Mr. Nishihara. Thank you.
    Mr. Tsuji. Thank you very much.
    Mr. Wong. Thank you.
    Senator Akaka. I would ask our third panel to please come 
forward. I welcome our third panel of witnesses to the 
Subcommittee:
    Mr. Bruce Murley, who is the Honolulu Area Port Director 
for Customs and Border Protection of the U.S. Department of 
Homeland Security;
    Mr. Vernon Harrington, State Plant Health Director for the 
Animal and Plant Health Inspection Service of the U.S. 
Department of Agriculture;
    And Mr. George Phocas, Resident Agent-in-Charge for the 
Fish and Wildlife Service (FWS) of the U.S. Department of the 
Interior.
    As you know, it is the custom of the Subcommittee to swear 
in our witnesses. Would you please stand and raise your right 
hands? Do you solemnly swear that your testimony will be the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Mr. Murley. Yes, I do.
    Mr. Harrington. Yes, I do.
    Mr. Phocas. Yes, I do.
    Senator Akaka. Thank you. Before we start, again, I want 
you to know that your full written statements will be included 
in the record, and I would like to remind you to please limit 
your oral remarks to 5 minutes.
    Mr. Murley, will you please proceed?

TESTIMONY OF BRUCE W. MURLEY,\1\ AREA PORT DIRECTOR, HONOLULU, 
OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Murley. Yes, thank you, Senator Akaka, and thank you 
for the opportunity to be up here today alongside my colleagues 
from Animal and Plant Health Inspection Service and the U.S. 
Fish and Wildlife Service to discuss our role in protecting the 
Nation's, and specifically Hawaii's, food supply and 
agricultural industry from foreign pests and diseases.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Murley appears in the appendix on 
page 47.
---------------------------------------------------------------------------
    I would like to begin by expressing my thanks to the men 
and women of CBP who do an extraordinary job on the front lines 
every day protecting U.S. agriculture and natural resources 
from foreign-origin pests and disease at our Nation's border.
    In particular, I would like to recognize Ms. Hilda Montoya. 
She is my Assistant Port Director for Trade Operations. Ms. 
Montoya brings a wealth of agricultural experience to Hawaii 
with over 30 years of experience, including previous positions 
such as USDA Port Director for Honolulu and USDA Officer in 
Charge in Guam. Ms. Montoya, along with Chief Jim Cossack and 
the rest of the experienced and dedicated agricultural staff 
here in Hawaii, ensures that CBP is protecting Hawaii's unique 
environment from foreign threats.
    Since the transfer of agriculture inspection 
responsibilities from APHIS in 2003, CBP has taken great steps 
to strengthen the agricultural quarantine inspection program 
and integrate agriculture issues into CBP's passenger and cargo 
inspection programs. Over the years, we have implemented 
numerous successes in the agricultural arena. A couple of those 
would be:
    We created the Agriculture Enforcement Alerts program, an 
information-sharing initiative for State and Federal 
agriculture officials to evaluate trends of interdiction of 
plant pests and foreign animal diseases and identify potential 
risks to U.S. agriculture.
    CBP and APHIS established a formal assessment process and 
Quality Assurance Program to ensure that ports continue to 
carry out agricultural inspections in accordance with APHIS' 
regulations, policies, and procedures.
    CBP's relationship with the State of Hawaii is strong. A 
few examples of our collaboration here in the islands would 
include: Our facilitation of the Hawaii Pest Risk Committee, 
where Federal and State government agencies discuss current and 
emerging issues, exchange information, analyze data, and 
discuss respective efforts in protecting the United States and 
the State of Hawaii from plant pests and foreign animal 
diseases.
    We also participate in a learning community comprising the 
Hawaii Department of Agriculture, Fish and Wildlife, the Nature 
Conservancy (TNC), the U.S. Forest Service, and APHIS to 
provide outreach and education to South Pacific island teams on 
invasive species and plant/pest risk in the Pacific.
    One of CBP's more important collaborative efforts is our 
participation in the Coordinating Group for Alien Pest Species 
(CGAPS). Through this group, TNC brings private, university, 
and governmental interests together to discuss and coordinate 
efforts in protecting the State of Hawaii's wide range of 
agricultural and natural resources. CBP's active role as a 
steering committee member has ensured increased understanding 
of CBP's responsibilities in enforcing Federal laws and 
regulations.
    As I am sure you are aware, Senator, CBP is and has been 
working hard to ensure the agriculture mission is well 
positioned throughout our agency. Our agricultural personnel 
are empowered at every level to ensure that the threat of 
introduction of plant, pest, and foreign animal diseases is 
given equal emphasis as other CBP mission responsibilities.
    On a final note, CBP is creating a comprehensive 
agriculture specialist career track for entry-level 
specialists, and it has ensured specialists are provided the 
training, experience, and assignments necessary for career 
progression within CBP.
    Further, we have developed plans to improve agriculture 
specialist recruitment and retention and have ensured 
specialists have the equipment and resources to fully and 
effectively carry out their mission. We are also working on 
establishing a formal interagency rotation program for APHIS 
training personnel to rotate to CBP ports of entry aimed at 
enhancing their knowledge of our operations and thereby 
ensuring a more effective instruction experience.
    Senator Akaka, thank you again for this opportunity to 
outline CBP's role in protecting our Nation's agriculture 
industry and natural resources, and I look forward to answering 
any questions that you may have, sir.
    Senator Akaka. Thank you very much, Mr. Murley.
    Mr. Harrington, will you please proceed with your 
statement?

TESTIMONY OF VERNON HARRINGTON,\1\ STATE PLANT HEALTH DIRECTOR, 
   PLANT PROTECTION AND QUARANTINE, ANIMAL AND PLANT HEALTH 
       INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Harrington. Sure. Aloha, Senator Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harrington appears in the 
appendix on page 53.
---------------------------------------------------------------------------
    Senator Akaka. Aloha.
    Mr. Harrington. For the last 10 years, I have served as the 
State Plant Health Director for USDA Animal and Plant Health 
Inspection Service. As the State Plant Health Director, I 
oversee APHIS' plant protection and quarantine programs within 
Hawaii.
    I was born and raised in Hawaii, and I graduated from the 
University of Hawaii, and I understand how important the unique 
flora and fauna are to our beautiful State.
    Helping to protect these resources is what my staff and I 
do every day, and it is at the core of APHIS' mission. We have 
all worked hard to develop a robust system to protect those 
critical resources.
    The Agriculture Quarantine and Inspection (AQI) program is 
the backbone of our efforts. AQI has a comprehensive set of 
interlocking programs that work together to protect 
agriculture. Most people encounter AQI when they see our 
inspector colleagues from Customs and Border Protection at the 
airport, but there is a lot more than goes on than just 
inspections. It is about more than just inspections. APHIS' 
efforts start before products or people enter the country, and 
I would like to share some of those activities, some of the 
main points.
    APHIS makes scientific, risk-based decisions about what 
commodities can enter the country and under what conditions.
    APHIS negotiates protocols with trading partners to expand 
markets for U.S. goods and to allow the importation of pest-
free products into the country.
    The agency conducts smuggling, interdiction, and trade 
compliance activities to trace illegal imports that slip past 
our protection system.
    And we train our CBP colleagues in how to enforce 
agricultural import regulations.
    It is that last item that gets at one of the keys to our 
success. We have strong relationships with our State and 
Federal partners that help us carry out this critical mission. 
Here in Hawaii, that is especially true. Like my counterpart 
said, we have the Hawaii Risk Committee (HIRC). It is a 
partnership of the three agencies on this panel and the Hawaii 
Department of Agriculture.
    We work together to identify and review the pathways by 
which foreign pests and diseases enter the country, as well as 
strategies to reduce and mitigate them.
    Another example of how strong partnerships as far as here 
is working with the Coordinating Group on Alien Pest Species. 
The group involves organizations at the Federal, State, and 
county level as well as numerous private entities.
    We have worked collaboratively to develop the Pacific Ant 
Plan, and we have conducted emergency incident training so we 
are all aware basically of what to do if a pest hits and how 
would we respond to eliminate that risk.
    Those are just a few of the many ways that we work together 
in support of our critical mission, and I could assure you that 
we are going to continue to strengthen our relationships.
    I really believe that we have laid an excellent foundation 
to support our partnerships. Everyone at this table is 
committed to working together to protect agriculture.
    In a place as beautiful as Hawaii, which has so many 
diverse resources, APHIS' actions have an especially important 
role to play.
    Thank you again for allowing me to testify, and I will be 
happy to answer any questions that I can.
    Senator Akaka. Thank you very much for your statement.
    Mr. Phocas, will you please proceed with your statement?

TESTIMONY OF GEORGE PHOCAS,\1\ RESIDENT AGENT-IN-CHARGE, OFFICE 
OF LAW ENFORCEMENT, FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Phocas. Aloha, Chairman Akaka, thank you. And thank you 
for this opportunity to testify on the Service's efforts to 
protect the ecological and agricultural interests of Hawaii 
from the threat of non-native, invasive species. I am George 
Phocas, Resident Agent-in-Charge of the United States Fish and 
Wildlife Service's Office of Law Enforcement, and I oversee our 
operations in the Pacific region. My testimony will focus on 
the threats posed by invasive species to native species and 
native ecosystems in Hawaii in particular, and what we are 
doing to prevent new invasions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Phocas appears in the appendix on 
page 56.
---------------------------------------------------------------------------
    Non-native and invasive wildlife species are a significant 
threat to ecosystems throughout the United States. Nearly half 
of the species impacted and protected by the Endangered Species 
Act are listed in part because of invasive species impacts.
    The United States continues to receive imports of non-
native species, and some of these have entered our lands and 
waters through various pathways and become established there. 
This trend is expected to continue, making invasive species 
among the most significant natural resource management 
challenges that we face, particularly in Hawaii.
    Hawaii is particularly vulnerable. Of the 400 species that 
are federally listed as endangered primarily because of 
competition with or predation by invasive wildlife species, at 
least 374 are found in Hawaii. These imperiled native species 
include plants and animals, including bird species like the 
Oahu elepaio. And these invasive species are also known to 
alter the functioning of our island ecosystems. For example, 
the non-native strawberry guava has become widespread in native 
Hawaiian forests, forming impenetrable thickets that crowd out 
native plant species, fragmenting native habitats, and 
disrupting native ecosystem processes, including the supply of 
fresh water. The strawberry guava was first brought to Hawaii 
in 1825, this highly invasive plant is now established on all 
major Hawaiian Islands.
    Non-native animals in the deer family have degraded 
ecosystems in Hawaii. This is the primary threat that led to 
the listing of the majority of threatened and endangered 
species in Hawaii. The axis deer was first introduced in 1868, 
and populations of this species are established on the islands 
of Maui, Molokai, and Lanai. It currently numbers in the 
thousands and is distributed across the entire island of Maui. 
It is a voracious grazer of forest understory plants, including 
seedlings of native trees that are critical to the survival of 
native Hawaiian birds. Axis deer are now confirmed in the Kau 
area of Hawaii Island, and they have been reported in other 
places as well.
    The brown tree snake has had a significant impact on the 
biodiversity of the Pacific region. The brown tree snake 
arrived in Guam sometime during the 1940s and 1950s, likely as 
a stowaway. These snakes have since spread across the entire 
island and have caused or contributed to the extirpation of 
most of Guam's native terrestrial vertebrates, including fruit 
bats, lizards, and 9 of 13 native forest bird species. In 
addition to ecological impacts, brown tree snakes also cause 
millions of dollars in damage to infrastructure and the economy 
by entering and moving through electrical distribution 
equipment and causing frequent power outages.
    Since 1981, eight brown tree snakes have been reported to 
have reached Hawaii through the movement of civilian and 
military equipment and cargo arriving from Guam. And since the 
establishment of the Brown Tree Snake Eradiation program on 
Guam in 1994, the rate of snake captures associated with cargo 
shipped to Hawaii has declined dramatically.
    Preventing new introductions of invasive species is the 
most effective approach to protecting native wildlife and their 
habitats, so we work with our partners to control these 
invasive species and minimize their impacts.
    Our partners in these efforts in Hawaii include, of course, 
my partners at this table--Customs and Border Protection, the 
USDA Animal and Plant Health Inspection Service, and, of 
course, State agencies such as the Hawaii Department of 
Agriculture and the Hawaii Department of Land and Natural 
Resources.
    The Service has developed and implemented a 5-year 
strategic plan that addresses invasive species in the State and 
the Pacific region.
    Non-native species can harm economic, ecological, and human 
health interests. The Lacey Act of 1900--the country's first 
Federal wildlife protection law--was enacted in part to address 
this concern, and today its injurious wildlife provisions 
provide the Service's only regulatory tool to address invasive 
species at the Federal level. Under Title 18, the Secretary of 
the Interior is authorized to prohibit the importation and 
interstate transport of species ``designated as injurious to 
human beings, to the interests of agriculture, horticulture, 
forestry, or to wildlife or the wildlife resources of the 
United States.''
    The Service is responsible for identifying and listing such 
species through the rulemaking process and we conduct our 
enforcement efforts through the Service's office of Law 
Enforcement. This includes the interdiction of species listed 
as injurious; investigations of illegal importation or the 
interstate transport of federally listed injurious wildlife; 
and assistance to the States in the interception of illegal 
importation and/or transport of invasive species banned under 
State law. And our wildlife inspection program is an important 
part of this effort. It is part of the Nation's front-line 
defense against injurious wildlife species. It operates in all 
50 States and the territories and, again, works hand in hand 
with the good men and women of the U.S. Customs and Border 
Protection agency.
    I see that I am out of time, Mr. Chairman. I do not wish to 
exceed, and I believe you have the rest of my written 
testimony.
    Senator Akaka. Thank you very much, Mr. Phocas.
    My first question is to Mr. Murley. Mr. Murley, Federal 
agricultural inspections are a critical component of Homeland 
Security and are considered to be core airport functions. 
Dangerous pests or even agents of bioterrorism can come from 
domestic locations as well as from abroad. In light of the 
parallel missions of the Federal and State agricultural 
inspectors, would you agree that both State and Federal 
agricultural inspections must be considered to be core airport 
functions?
    Mr. Murley. Yes, sir, Senator, thank you. I do believe that 
they are core inspection functions and responsibilities. As you 
know, CBP's authority lies in our nexus to international 
arrivals and departures, and for that reason we are not 
involved, obviously, with the inspection of domestic shipments 
or passengers. We are strictly focused on the international 
arrivals and departures into the State of Hawaii. But it is and 
has been a very core part of our functions here in Hawaii for 
years, as it is in every other port of entry around the 
country.
    Senator Akaka. Thank you.
    Mr. Harrington, in August 2006, APHIS promised to complete 
a comprehensive risk assessment specifically for Hawaii within 
6 months. This analysis would evaluate the threats facing our 
State and identify what could be done to address risks unique 
to Hawaii. I understand that HDOA has reviewed the draft 
analysis and believes that, if implemented, it would 
dramatically enhance Hawaii's level of protection against 
invasive species.
    When does USDA plan to release this ground-breaking pathway 
risk analysis?
    Mr. Harrington. Thank you, Senator. Like you say, the 
analysis was done, but basically what it was was a lot of 
information and data collecting, and what we did was working--
and we have a great relationship with the Hawaii Department of 
Agriculture, so what we did was we basically went over that, 
utilized the pathway analysis, our years of inspection data, 
and our expertise, and then what we did is we utilized 
basically all that data and that information, looking at the 
risks, and to enhance and implement initiatives for Hawaii to 
protect Hawaii, through some of our programs. And what we have 
agreed to do is review what we do and look at the risk 
analysis, evaluate it yearly to see what we need to enhance or 
anywhere that we need to improve.
    Some of the things that we did set up, again, is the Hawaii 
Risk Committee, developing a protocol with the Hawaii 
Department of Agriculture for suspect foreign pests intercepted 
in domestic cargo. That was one of the main concerns, that 
cargo is being cleared from, say, California or somewhere, and 
this cargo comes through Hawaii but still has Federal pests.
    So we work alongside--there is a protocol now where we work 
alongside the Hawaii Department of agriculture so we can track 
that pest all the way back, and if we do find that it is from a 
port coming in of entry, then we can work with our CBP 
counterparts to address those issues, and things like our 
cooperative agriculture pest survey program, our pest 
detection, so we can find any problem pests as soon as 
possible, consolidate to the smallest area with the possibility 
of eradication. We have also expanded that program to Guam, the 
Marianas, and American Samoa so that we expand again our 
communication, our pathways, and we can try to mitigate pests 
before they come.
    But these are some of the activities, and we have a fruit 
fly detection program, but basically with all the different 
activities and the funding that we are able to partner with the 
Hawaii Department of Agriculture, we utilize that data in the 
pathway analysis to do that. So it is basically what we 
consider or what we are using it as is a working document to 
continue to evaluate and enhance our program. I hope that 
answers, but we----
    Senator Akaka. Yes, well----
    Mr. Harrington. That is how we use the document, anyway, 
Senator.
    Senator Akaka. Yes. We wanted to know when the plan would 
be released.
    Mr. Harrington. As far as we utilize the data in there, but 
any final plan I will work with my agency to get when they plan 
on doing that, releasing a final draft.
    Senator Akaka. OK.
    Mr. Murley, if USDA finalizes this Hawaii comprehensive 
pathway risk analysis, how would the Honolulu Office of Field 
Operations adjust its operations to carry out the new enhanced 
mission?
    Mr. Murley. Thank you, Senator. We are always looking at 
ways that we can enhance our enforcement posture in every area, 
including the agricultural enforcement area. With that data 
from APHIS, we would be able to tailor our inspection processes 
here in Honolulu to address any new identified risk, any new 
pathways that we could have influence on protecting. And as Mr. 
Harrington alluded to, our ability to reach out to other ports 
of entry around the country, leverages us to be able to better 
address those threats at other locations that may eventually 
find their way here to Hawaii in domestic cargo or passenger--
--
    Senator Akaka. Thank you.
    Mr. Phocas, I agree with you that preventing new 
introductions of invasive species is the most effective 
approach to protecting native wildlife and their habitats from 
the impact of these harmful species. I want to commend the 
Service for making prevention a primary focus.
    Would you please elaborate on why this is the most 
efficient and effective strategy?
    Mr. Phocas. Prevention is, quite simply, very cost 
effective. It is very difficult after the fact, after something 
has been introduced, to try to remove it, to eradicate it, to 
stop it from spreading, or, for that matter, to repair the 
damage it may have already caused whether the damage is to a 
sensitive ecosystem or to a small business. We have learned 
this lesson through hard experience, watching our friends and 
colleagues in Guam deal with the brown tree snake invasion and 
through other examples throughout the Pacific and on the 
mainland.
    So we know that prevention is the correct way to address 
this issue, and we work very hard, again, with our partners in 
science and enforcement, to develop risk analyses that use 
information from past experiences we know where best to channel 
our resources to both stop the entry of these species before 
they get here and to prevent these species from spreading once 
they have arrived.
    Senator Akaka. Thank you.
    Mr. Phocas. Thank you.
    Senator Akaka. Mr. Harrington, USDA conducts preclearance 
inspections in Hawaii to protect the mainland from fruit flies. 
As was discussed during the second panel, currently USDA 
employees, over 400 individuals, conduct outbound inspections 
of cargo leaving Hawaii for the mainland, yet only a small team 
of inspectors process domestic cargo coming into the State.
    Why is that investment so uneven, and do you think the 
balance should be re-evaluated?
    Mr. Harrington. I am writing this down so I do not miss the 
question, Senator.
    I have statewide approximately a little over--we had 450, 
but with the reduction we have a little over 400 employees. A 
large number, maybe half of that number, is part-time to help 
with inspection programs. I guess to best answer that, the 
majority of the work is preclearance because of the 318.13 
quarantine that Hawaii--not only fruit flies but with other 
pests going to the mainland. And part of the balance is why we 
set a program like that up. To be able to have an export 
program out of Hawaii, you have to have a strong outbound 
program. Without a program quarantining and making sure we have 
that, not only passengers but cargo and cut flowers and the 
different commodities would not be able to move out of Hawaii. 
So we have inspectors doing those activities. We also have 
inspectors doing plant inspection station. But, again, the 
majority of the work and the funding of our program is for the 
quarantine of outgoing programs.
    With additional funding, I think it would be great that, we 
could utilize that and we could support and work more with our 
counterparts, especially with the Hawaii Department of 
Agriculture. What we have done in lieu of not having the 
inspectors, we have increased our cooperative--like our pest 
detection or different programs. I believe when I came here a 
year ago--not a year ago, about 10 years ago, the program was 
just for the pest detection, early detection program. It was 
not even $10,000. Now in Hawaii and the Pacific, it is closer 
to $1.2 million, and we continue to try and increase that. But 
I believe, to answer your question, that we could benefit from 
more inspectors and with inbound in assisting the Hawaii 
Department of Agriculture.
    Senator Akaka. Thank you.
    Here is a question for you, Mr. Harrington and Mr. Murley. 
The Animal Damage Control Act requires USDA to prevent the 
brown tree snake from entering Hawaii from Guam. However, I 
understand that APHIS does not classify BTS as a pest that DHS 
should prevent from entering the United States. In light of 
statutory requirements and brown tree snake's potential to 
cause extreme damage to Hawaii, how do you plan to work 
together to make sure BTS does not enter Hawaii?
    Mr. Murley. I will go first, Senator. As you point out, it 
is not in CBP's purview to enforce the brown tree snake 
program. However, I really have to say that I have confidence 
in my officers and the agriculture specialists out there that 
are performing inspections in whatever environment, in whatever 
pathway, that if they come across a snake of any kind, an 
animal of any kind, that will get isolated and reported 
immediately. It is not something that falls into our prohibited 
area, obviously, but our officers know--and, I have many 
examples of inspections that occurred in which they encountered 
something that wasn't prohibited for CBP purposes, or USDA 
purposes for that matter, but it was reported to another entity 
to take action. And I have every confidence that my officers 
would do the same if they encounter a snake in any environment.
    Senator Akaka. Mr. Harrington.
    Mr. Harrington. That program, again, with APHIS, but 
doesn't fall under plant protection and quarantine, but it does 
fall under wildlife services. I work closely with Mike Pitzler, 
and I know, in fact, they had to evaluate the program, work 
with the Department of Defense and the Interior to secure 
funding so that it could go on through this next fiscal year, 
and I know they continue to evaluate that.
    We do assist--it is not very often. If we are asked to, if 
they are short, if there is some emergency or there is a 
suspect shipment, they would call us. We do have a couple--of 
officers in Guam to carry out plant protection and quarantine 
activities. But that is the extent of our involvement with the 
brown tree snake.
    Senator Akaka. Mr. Phocas, your testimony raised the issue 
of Hawaii being used as a clearinghouse for the distribution of 
illegal or harmful species of fish and reptiles traveling to 
and from the mainland and even foreign countries. Would you 
please describe how your office is coordinating with HDOA and 
Federal partners to combat this trend and pursue individuals 
who are running these illegal trafficking networks?
    Mr. Phocas. Of course, Mr. Chairman. Thank you.
    This takes two tracks. One is immediately investigating, 
interdicting, and identifying specific activities that fall 
under this description, essentially to find the people 
responsible and prepare cases and work with the U.S. Department 
of Justice or whatever facility is required to address that. 
But equally important are the lessons learned during our 
investigations. We now know techniques that perhaps we were not 
aware of before. We now know the ways importers hide certain 
species and we know more about the markets in which the species 
are sold or traded. It is incumbent upon my officers and I to 
share this with our Federal partners. This is something that we 
do on a regular basis, and I have to express that my partners 
here at this table are most receptive when we discuss our 
findings with them. These are regular meetings so that we can 
prevent the next attempt. And, again, that is a two-part way to 
address any specific incident.
    Senator Akaka. Mr. Murley, in recent years Customs and 
Border Protection has made significant progress in improving 
agricultural inspections. I would like to commend Kevin 
Harriger and Dianna Bowman for their strong leadership in 
guiding these efforts. Under their leadership I am confident 
that DHS will be able to establish an Office of Agricultural 
Inspection that can effectively coordinate with field 
operations while enhancing agricultural inspections.
    Do you believe Customs and Border Protection has the 
leadership that is capable of effectively implementing S. 1673?
    Mr. Murley. Thank you, Mr. Chairman, and I will pass those 
compliments on to Mr. Harriger, who is sitting behind me right 
now, and also to Ms. Bowman.
    Obviously, I am an operational person. I am in the field 
here and I have confidence in the structure as it is. We are 
getting the information and support in terms of resources, 
staffing, whatever it is we need with the current structure. I 
feel that there have been a number of improvements, as you 
allude to, in the last few years in terms of the structure 
within the Office of Federal Operations (OFO) and providing 
that focus on agriculture and improving that focus on the 
agriculture mission within CBP.
    So, yes, I am confident that the leadership is focused. It 
is an issue that has received a lot of attention within the 
agency in the last few years and continues to be more and more 
an important part of our focus and our mission, the overall 
mission of CBP. So I am confident, yes, sir.
    Senator Akaka. Mr. Murley, the Homeland Security Act of 
2002 merged front-line customs, immigration, and agriculture 
inspectors under DHS. However, several Federal inspection 
agencies were not included in the One Face at the Border 
Initiative. For example, the U.S. Fish and Wildlife Service, 
the Food and Drug Administration (FDA), the Centers for Disease 
Control (CDC), and even USDA retained responsibility for 
conducting certain front-line inspections.
    Has Customs and Border Protection been able to effectively 
coordinate operations with these other front-line inspection 
agencies?
    Mr. Murley. Yes, sir, Mr. Chairman. Obviously, before 2002 
or 2003 and with the creation of CBP, we worked hand in hand 
with those same entities in the border protection areas. It was 
a very natural fit, for customs, immigration, and the Plant 
Protection and Quarantine (PPQ) or APHIS officers to come 
together because we were present in almost every port of entry 
around the country. Our other partners within the ports of 
entry, Fish and Wildlife and CDC, among others, are still an 
important part of what we do. We enforce the regulations for 
them, and we coordinate very closely with them on a day-to-day 
basis wherever needed, whether it is local, if they are present 
locally; if we are in a port of entry where they are not 
present, we know how to get in touch with those folks; to 
ensure that their laws and regulations are equally well 
enforced by our agency.
    Senator Akaka. Thank you.
    Mr. Phocas, you noted in your testimony that the Office of 
Law Enforcement's Wildlife Inspection Program is an important 
part of the Nation's front-line defense against harmful 
wildlife species. With wildlife in Honolulu and at 37 other 
major U.S. airports, ocean ports, as well as border crossings, 
would you like to comment on the Service's coordination with 
Customs and Border Protection?
    Mr. Phocas. I believe it has been very successful, Mr. 
Chairman. Our efforts have always been to work hand in hand 
with our partners in the Federal inspection services. We are, 
of course, a small agency, so we depend very greatly on working 
well with our Federal partners, and we find the most efficient 
ways of doing so. This is often through training, sharing of 
intelligence, working side by side. This extends to places 
where we have a presence that they may not. An example would be 
in Saipan or Guam in the U.S. Territories, outside the U.S. 
customs zone. But I feel that this has always worked well. We 
can always try harder, and we strive to identify ways to 
maximize and leverage our efforts to work even better with this 
Federal inspection team.
    Senator Akaka. Thank you.
    Mr. Harrington, as you know, Hawaii was the last remaining 
place on Earth that supplied disease-free honey queen bees to 
the rest of the world. State officials strongly opposed USDA's 
decision to allow diseased honeybees to travel from New Zealand 
through Hawaii on their way to the mainland. Despite the USDA's 
assurances that Hawaii would be protected, our State's bee 
colonies are now infested.
    What analysis does the Department conduct to determine 
whether to heed concerns from a State that do not apply on the 
mainland, both generally and specifically in this particular 
case?
    Mr. Harrington. In the case of the honeybees.
    Senator Akaka. Of the bees.
    Mr. Harrington. I have not worked directly with--we have a 
bee specialist in the region and in headquarters, but I know in 
the case of the bees or other pests, a pest risk analysis would 
be done, an evaluation, what the threat is as far as how secure 
the inspection, if it is just transiting through Hawaii, and 
the protocols that would need to be followed to mitigate any 
pests.
    If it is for bees or anything else, I know that is what is 
done for any pests coming into Hawaii, and I believe that was 
done with the honeybees, that they felt that doing the risk 
analysis and the methods of handling it and safeguarding it 
transiting through Hawaii, that it would not pose a risk, and 
that is why they allowed the movement of the bees through 
Hawaii.
    Senator Akaka. Well, I want to thank this panel for your 
testimony and your responses. It will be helpful for us as we 
consider the bill and also think of how we can improve the 
services out here that deal with invasive species. Somehow we 
need to let the rest of the country know how important it is to 
Hawaii that we do this.
    I would like to thank all of our witnesses today for being 
here. This is critically important to the future of Hawaii, and 
I am so glad we are having this hearing, and I look forward to 
working with all of you to make sure our State is protected 
against invasive species.
    I want you to know that the hearing record will remain open 
for 2 weeks for additional statements or questions other 
members may have for our witnesses.
    Again, I want to thank you for this hearing today. I think 
it was long in coming, but I am glad that there is 
coordination, and this is something that in a sense we are 
blessed with in Hawaii. It seems as though our different 
levels--Federal, State, and local levels--do work together, and 
we need to stress this, that we need to continue to work on 
this, to pick up the phone and talk to each other rather than 
writing letters, which take time, and try to resolve some of 
these dire problems that we face.
    Of course, what we are doing is to try to keep Hawaii as 
pristine as we can, because it is a beautiful place for the 
people who live here as well our visitors, and we all have a 
part in this. And let me point out, too, that another part of 
this that we really have not talked about is outreach to let 
the public know about this so they can help prevent invasive 
species from being brought in, and also taken out.
    This has been an important hearing, and I thank all of our 
witnesses.
    This hearing is adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
